No. 20-1029

In The Supreme Court of The United States
City of Austin, TX v. Reagan National Advertising of Austin, Incorporated, et al.
CERTIFICATE OF COMPLIANCE
As required by the Supreme Court Rule 33.1(h), I certify that the document
contains 7,389 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on August 20, 2021.

For:
JOHN J. KORZEN
Counsel of Record
WAKE FOREST UNIVERSITY SCHOOL OF LAW
APPELLATE ADVOCACY CLINIC
Post Office Box 7206
Winston-Salem, NC 27109
(336) 758-5832
korzenjj@wfu.edu
LISA SORONEN
STATE AND LOCAL LEGAL CENTER
123 N. Capitol St. N.W.
Washington, DC 20001
(202) 434-4845
lsoronen@sso.org
Counsel for Amici Curiae

Shelly N. Gannon
Gibson Moore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 – Telephone
(804) 249-7771 – Facsimile
shelly@gibsonmoore.net

